Department of Health and Human Services 

                   OFFICE OF 

              INSPECTOR GENERAL 



  CENTER FOR COMMUNITY AND 

     FAMILY SERVICES, INC., 

  DID NOT EXPEND HEAD START 

   AND RECOVERY ACT FUNDS 

      IN ACCORDANCE WITH 

    FEDERAL REQUIREMENTS 





  Inquiries about this report may be addressed to the Office ofPublic Affairs at
                           Public.Affairs@oig.hhs.gov.




                                                     KayL. Daly
                                              Assistant Inspector General

                                                       June 2013
                                                      A-09·11·01006
                        Office ofInspector General
                                         https:/ / oig.hhs.gov



The mission ofthe Office ofInspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits , investigations, and inspections conducted by the following
operating components:

Office ofAudit Services

The Office of Audit Services (OAS) provides auditing services for HHS , either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments ofHHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office ofEvaluation and Inspections

The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office ofInvestigations

The Office oflnvestigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs , operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General

The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG's internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                 EXECUTIVE SUMMARY

BACKGROUND

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the program are to promote school
readiness and enhance the social and cognitive development of children from families with low
incomes by providing educational, health, nutritional, and social services. Within the U.S.
Department of Health and Human Services, the Administration for Children and Families (ACF),
Office of Head Start (OHS), administers the Head Start and Early Head Start programs. (We
refer to both programs as the Head Start program.) Congress appropriated $7.2 billion in fiscal
year (FY) 2010 and $7.6 billion in FY 2011 to fund Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

The Center for Community and Family Services, Inc. (the Center), a nonprofit corporation, is
funded by various Federal and State agencies. The Center operated a Head Start program in
West San Gabriel Valley, Los Angeles County, California. The Center’s mission was to help
low-income families break the cycle of poverty by achieving more economic self-sufficiency.
The Center relinquished its Head Start funds effective October 7, 2011.

For the period July 1, 2009, through September 29, 2011, ACF awarded five grants to the Center,
totaling approximately $27.4 million. The grants consisted of $23.4 million in Head Start funds
to continue the Center’s Head Start operations and $4 million in Recovery Act funds to expand
enrollment and to make cost-of-living adjustments and Head Start quality improvements. ACF
requested that we compare grant funds that the Center received for the period July 1, 2009,
through March 31, 2011, with the total expenditures that the Center reported to ACF during that
period. ACF also requested that we review selected transactions for expenditures incurred from
July 1, 2010, through March 31, 2011.

Pursuant to 45 CFR § 74.27(a), nonprofit organizations that receive ACF funds must comply
with Federal cost principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations.
Also, as Federal grantees, nonprofit organizations must maintain financial management systems
pursuant to the standards at 45 CFR § 74.21.

OBJECTIVES

Our objectives were to determine whether the Center (1) maintained adequate financial records
to support grant funds received from ACF, (2) claimed costs that were allowable, and
(3) maintained financial management systems and practices that complied with Federal
requirements.




                                               i
SUMMARY OF FINDINGS

The Center did not maintain adequate financial records to support grant funds received from
ACF and claimed costs that were unallowable:

   •   Of the $18,811,894 that the Center received for the period July 1, 2009, through
       March 31, 2011, the Center received $197,827 in cash advances and reported to ACF
       $73,543 in costs that were unallowable because they were not supported by its accounting
       records. In addition, the Center allocated to the Head Start program $785,296 in costs
       that were not supported by adequate records; these costs were shared by Head Start and
       two State programs for which the Center received funding. We set aside the $785,296 for
       resolution by OHS.

   •   Of the $5,971,269 in selected transactions that we reviewed for the period July 1, 2010,
       through March 31, 2011, the Center claimed $317,285 in costs that were allowable;
       $696,017 in indirect, accrued, equipment, contractual, other direct, and vision insurance
       costs that were unallowable; and $4,957,967 in salary and wage and related fringe benefit
       costs that were not adequately supported. We set aside the $4,957,967 for resolution by
       OHS.

In total, we determined that $967,387 was unallowable, and we set aside $5,743,263 for
resolution by OHS.

In addition, the Center did not maintain financial management systems and practices that
complied with Federal requirements. Specifically, the Center did not maintain a financial
management system that safeguarded assets, did not always maintain Federal funds in insured
bank accounts, and did not maintain property management and procurement standards in
accordance with Federal requirements.

RECOMMENDATIONS

We recommend that OHS:

   •   require the Center to refund $967,387 to the Federal Government and

   •   work with the Center to determine the allowability of $5,743,263 that we set aside and
       ensure that the Center refunds any amount that is determined to be unallowable.

We are not making recommendations to address the Center’s noncompliance with Federal
requirements for financial management systems and practices because the Center relinquished its
Head Start funds effective October 7, 2011.




                                               ii
CENTER FOR COMMUNITY AND FAMILY SERVICES, INC., COMMENTS AND
OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Center disagreed with our findings that it did not
maintain adequate financial records to support grant funds received from ACF and that it claimed
costs that were unallowable. The Center did not comment on our finding that it did not maintain
financial management systems and practices that complied with Federal requirements. Nothing
in the Center’s comments caused us to revise our findings.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS agreed with our findings on unallowable costs and
the related recommendation to refund $967,387. Regarding the second recommendation, OHS
stated that it would evaluate the allowability of the $5,743,263 that we set aside and the potential
disallowance action.




                                                 iii
                                                    TABLE OF CONTENTS

                                                                                                                                      Page

INTRODUCTION....................................................................................................................1

     BACKGROUND .................................................................................................................1
       Head Start Program ........................................................................................................1
       Center for Community and Family Services, Inc. .........................................................1
       Federal Requirements for Grantees ...............................................................................2
       Special Award Conditions .............................................................................................2

     OBJECTIVES, SCOPE, AND METHODOLOGY .............................................................2
       Objectives ......................................................................................................................2
       Scope ..............................................................................................................................2
       Methodology ..................................................................................................................3

FINDINGS AND RECOMMENDATIONS ..........................................................................4

     THE CENTER DID NOT MAINTAIN ADEQUATE FINANCIAL RECORDS
      TO SUPPORT GRANT FUNDS RECEIVED .................................................................5
       Cash Advances in Excess of Reported Costs Not Supported by
         Accounting Records ....................................................................................................5
       Reported Costs Not Supported by Accounting Records ................................................5
       Shared Costs Not Supported by Adequate Records .......................................................6

     THE CENTER CLAIMED UNALLOWABLE AND
       INADEQUATELY SUPPORTED COSTS ...................................................................6
       Unallowable Indirect Costs ............................................................................................6
       Unallowable Accrued Costs ...........................................................................................7
       Unallowable Equipment Costs.......................................................................................7
       Unallowable Contractual Costs......................................................................................7
       Unallowable Other Direct Costs ....................................................................................8
       Unallowable Vision Insurance Costs .............................................................................8
       Inadequately Supported Salaries and Wages .................................................................8

     THE CENTER DID NOT MAINTAIN FINANCIAL MANAGEMENT SYSTEMS
      AND PRACTICES THAT COMPLIED WITH FEDERAL REQUIREMENTS ............9
       Safeguarding of Assets ..................................................................................................9
       Insured Bank Accounts ................................................................................................10
       Property Management Standards .................................................................................10
       Procurement Standards ................................................................................................10

     RECOMMENDATIONS ...................................................................................................11




                                                                       iv
  CENTER FOR COMMUNITY AND FAMILY SERVICES, INC., COMMENTS.........11

  OFFICE OF INSPECTOR GENERAL RESPONSE ........................................................12

  OFFICE OF HEAD START COMMENTS ......................................................................12

APPENDIXES

  A: FUNDS RECEIVED AND EXPENDITURES REPORTED FOR THE FIVE GRANTS
      FOR THE PERIOD JULY 1, 2009, THROUGH MARCH 31, 2011

  B: DISALLOWED AND SET-ASIDE COSTS

  C: CENTER FOR COMMUNITY AND FAMILY SERVICES, INC., COMMENTS

  D: OFFICE OF HEAD START COMMENTS




                                                    v
                                            INTRODUCTION

BACKGROUND

Head Start Program

Title VI of the Omnibus Budget Reconciliation Act of 1981 established Head Start as a Federal
discretionary grant program. The major objectives of the program are to promote school
readiness and enhance the social and cognitive development of children from families with low
incomes by providing educational, health, nutritional, and social services. In 1994, the Head
Start program was expanded to establish Early Head Start, which serves children from birth to
3 years of age. We refer to both programs as the Head Start program.

Within the U.S. Department of Health and Human Services (HHS), the Administration for
Children and Families (ACF), Office of Head Start (OHS), administers the Head Start program.
Congress appropriated $7.2 billion in fiscal year (FY) 2010 and $7.6 billion in FY 2011 to fund
Head Start’s regular operations.

The American Recovery and Reinvestment Act of 2009 (Recovery Act), P.L. No. 111-5,
provided an additional $2.1 billion for the Head Start program during FYs 2009 and 2010. These
funds were intended for activities such as expanding enrollment, funding cost-of-living wage
increases for employees of Head Start grantees, upgrading centers and classrooms, and bolstering
training and technical assistance.

Center for Community and Family Services, Inc.

The Center for Community and Family Services, Inc. (the Center), a nonprofit corporation, is
funded by various Federal and State agencies. The Center operated a Head Start program in
West San Gabriel Valley, Los Angeles County, California. The Center’s mission was to help
low-income families break the cycle of poverty by achieving more economic self-sufficiency.
The Center relinquished its Head Start funds effective October 7, 2011.

For the period July 1, 2009, through September 29, 2011, ACF awarded five grants to the Center,
totaling approximately $27.4 million. The grants consisted of $23.4 million in Head Start funds
to continue the Center’s Head Start operations and $4 million in Recovery Act funds to expand
enrollment and to make cost-of-living adjustments and Head Start quality improvements. Of the
$27.4 million awarded, the Center received $18.8 million in Head Start funds for the five grants
for the period July 1, 2009, through March 31, 2011. 1




1
 ACF requested that we review funds received for the five grants for the period July 1, 2009, through
March 31, 2011. ACF also requested that we review selected transactions for expenditures incurred from
July 1, 2010, through March 31, 2011.



                                                       1
Federal Requirements for Grantees

Pursuant to 45 CFR § 74.27(a), nonprofit organizations that receive ACF funds must comply
with Federal cost principles in 2 CFR part 230, Cost Principles for Non-Profit Organizations
(Office of Management and Budget Circular A-122).

Also, as Federal grantees, nonprofit organizations must maintain financial management systems
pursuant to the standards at 45 CFR § 74.21. Grantees’ financial management systems must
provide for (1) accurate, current, and complete disclosure of the financial results of each
HHS-sponsored project or program; (2) records that identify adequately the source and
application of funds for HHS-sponsored activities; (3) effective control over and accountability
for all funds, property, and other assets; and (4) accounting records, including cost accounting
records, that are supported by source documentation.

Special Award Conditions

Pursuant to 45 CFR § 74.14, ACF may impose additional requirements if a grant recipient has a
history of poor performance, is not financially stable, does not have a financial management
system that meets Federal standards, has not conformed to the terms and conditions of a previous
award, or is not otherwise responsible.

Effective February 7, 2011, ACF imposed special award conditions on the Center by requiring
the Center to obtain ACF approval before withdrawing grant funds. The Center’s board of
directors determined that the special terms and conditions made it impossible for the Center to
operate the Head Start program. As a result, the Center relinquished its Head Start funds
effective October 7, 2011.

OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

Our objectives were to determine whether the Center (1) maintained adequate financial records
to support grant funds received from ACF, (2) claimed costs that were allowable, and
(3) maintained financial management systems and practices that complied with Federal
requirements.

Scope

We performed this review in response to a request from ACF. Specifically, ACF requested that
we compare $18,811,894 in Head Start and Recovery Act funds that the Center received for the
five grants for the period July 1, 2009, through March 31, 2011, with the $18,936,123 in total
expenditures that the Center reported on the Financial Status Reports and Federal Financial
Reports that it submitted to ACF during that period. Appendix A provides a summary of funds
received and expenditures reported for the five grants.




                                                2
ACF also requested that we review selected transactions for expenditures incurred from
July 1, 2010, through March 31, 2011. As a result, we reviewed $5,971,269 of the $7,467,744 2
in grant expenditures that the Center reported for the five grants on the Financial Status Reports
and Federal Financial Reports for that period.

We reviewed only internal controls directly related to our audit objectives.

We performed fieldwork at the Center’s administrative offices in Pasadena and Carson,
California, from April 2011 to January 2012.

Methodology

To accomplish our objectives, we:

    •   reviewed relevant Federal laws, regulations, and guidance;

    •   reviewed the terms and conditions of the Center’s five grants;

    •   reviewed the Center’s bylaws, minutes from board of directors meetings, financial
        policies and procedures, and human resource policies and procedures;

    •   reviewed the Center’s audited consolidated financial statements for the years ended
        June 30, 2009, and June 30, 2010;

    •   reviewed the Center’s chart of accounts, expenditure reports, and other financial reports
        to assess the adequacy of the Center’s financial management systems and practices;

    •   interviewed the Center’s board of directors, executive director, chief financial officer,
        Head Start deputy director, and personnel;

    •   reviewed Payment Management System 3 (PMS) reports to determine the Center’s total
        funds received (cash advances) for the five grants;

    •   compared grant funds that the Center received for the period July 1, 2009, through
        March 31, 2011, with the expenditures that it reported to ACF on the Financial Status
        Reports and Federal Financial Reports;




2
 This amount is part of the $18,936,123 in Head Start and Recovery Act expenditures that the Center reported to
ACF for the five grants for the period July 1, 2009, through March 31, 2011.
3
  PMS is the key system that HHS uses for disbursing grant funds. PMS provides Web-based access to grantees to
request grant fund disbursements and transmits those funds electronically to grantees. It also provides real-time
account information to grantees and Federal agencies that award grants.


                                                        3
   •   compared the expenditures recorded in the Center’s general ledger with the expenditures
       that the Center reported to ACF on the Financial Status Reports and Federal Financial
       Reports;

   •   analyzed $7,467,744 in expenditures for the period July 1, 2010, through
       March 31, 2011, that were recorded for the five grants in the Center’s general ledger and
       judgmentally selected $5,971,269 in large, unusual, and/or recurring transactions for
       claimed direct and indirect costs;

   •   reviewed the Center’s supporting documentation (such as payroll records, vendors’
       invoices, proof of payment, and contracts) to determine the allowability of the selected
       transactions; and

   •   discussed the results of our review with ACF and Center officials.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform our audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

                         FINDINGS AND RECOMMENDATIONS

The Center did not maintain adequate financial records to support grant funds received from
ACF and claimed costs that were unallowable:

   •   Of the $18,811,894 that the Center received for the period July 1, 2009, through
       March 31, 2011, the Center received $197,827 in cash advances and reported to ACF
       $73,543 in costs that were unallowable because they were not supported by its accounting
       records. In addition, the Center allocated to the Head Start program $785,296 in costs
       that were not supported by adequate records; these costs were shared by Head Start and
       two State programs for which the Center received funding. We set aside the $785,296 for
       resolution by OHS.

   •   Of the $5,971,269 in selected transactions that we reviewed for the period July 1, 2010,
       through March 31, 2011, the Center claimed $317,285 in costs that were allowable;
       $696,017 in indirect, accrued, equipment, contractual, other direct, and vision insurance
       costs that were unallowable; and $4,957,967 in salary and wage and related fringe benefit
       costs that were not adequately supported. We set aside the $4,957,967 for resolution by
       OHS.

In total, we determined that $967,387 was unallowable, and we set aside $5,743,263 for
resolution by OHS. Appendix B provides a summary of the Center’s costs that we either
disallowed or set aside.




                                                4
In addition, the Center did not maintain financial management systems and practices that
complied with Federal requirements. Specifically, the Center did not maintain a financial
management system that safeguarded assets, did not always maintain Federal funds in insured
bank accounts, and did not maintain property management and procurement standards in
accordance with Federal requirements.

THE CENTER DID NOT MAINTAIN ADEQUATE FINANCIAL RECORDS
TO SUPPORT GRANT FUNDS RECEIVED

For the period July 1, 2009, through March 31, 2011, the Center received $197,827 in cash
advances that were unallowable and reported to ACF $73,543 in costs that were unallowable
because they were not supported by its accounting records. In addition, the Center allocated to
the Head Start program $785,296 in shared costs that were not supported by adequate records.
We set aside the $785,296 for resolution by OHS.

Cash Advances in Excess of Reported Costs Not Supported by Accounting Records

Federal regulations state that grantees’ financial management systems must provide for
accounting records, including cost accounting records, that are supported by source
documentation (45 CFR § 74.21(b)(7)). In addition, Federal regulations state that cash advances
to a grantee organization must be limited to the minimum amounts needed and be timed to be in
accordance with the actual, immediate cash requirements of the grantee organization in carrying
out the purpose of the approved program or project to the extent reasonably feasible (45 CFR
§ 74.22(b)(2)).

Of the $18,811,894 in cash advances that the Center received for the five grants, $197,827 was in
excess of reported costs and not supported by accounting records. The Center received
$12,921,066 in cash advances for three of the five grants; however, it reported to ACF
$12,723,239 in incurred expenditures. The Center was not able to provide documentation to
support the $197,827 difference between the total amount received and the total amount reported
in expenditures; it did not limit its cash advances to the minimum amounts needed. Therefore,
we determined that the $197,827 was unallowable.

Reported Costs Not Supported by Accounting Records

Federal regulations state that grantees must maintain financial management systems that provide
for accurate, current, and complete disclosure of the financial results of each HHS-sponsored
project (45 CFR § 74.21(b)(1)); records that identify adequately the source and application of
funds for HHS-sponsored activities (45 CFR § 74.21(b)(2)); effective control over and
accountability for all funds, property, and other assets (45 CFR § 74.21(b)(3)); and accounting
records, including cost accounting records, that are supported by source documentation (45 CFR
§ 74.21(b)(7)).

Of the $18,936,123 in total expenditures that the Center reported for the five grants, $73,543 was
not supported by accounting records. Specifically, the Center reported to ACF on its Financial
Status Report $11,256,277 in expenditures for one grant. This amount should have represented



                                                5
expenditures incurred under the grant and recorded in the Center’s general ledger. However, the
Center’s general ledger accounted for only $11,182,734 in expenditures. The Center was not
able to account for the $73,543 difference between the total amount reported and the total
amount recorded in the general ledger. Therefore, we determined that the $73,543 was
unallowable.

Shared Costs Not Supported by Adequate Records

Federal regulations state that grantees must maintain financial management systems that provide
for records that identify adequately the source and application of funds for HHS-sponsored
activities (45 CFR § 74.21(b)(2)). In addition, Federal cost principles (2 CFR part 230,
Appendix A) state that a cost is allocable to a Federal award if it is incurred specifically for the
award (§ A.4.a.(1)) and benefits both the award and other work and can be distributed in
reasonable proportion to the benefits received (§ A.4.a.(2)).

Of the $18,862,580 that the Center recorded in its general ledger for the five grants, $785,296 in
shared costs 4 was not supported by records that identified adequately the source and application
of funds. The Center received funding for the Head Start program and two State programs: the
California State Preschool Program (CSPP) and the Child Care Food Program (CCFP). The
Center deducted the State revenues (CSPP and CCFP) from the total shared costs incurred for the
three programs and allocated the remaining shared costs to the Head Start program. The Center
included this amount in the total expenditures reported on the Financial Status Report and the
Federal Financial Report. Because the Center allocated $785,296 in shared costs to two of its
five Head Start grants using this methodology, it was not able to identify the specific costs that it
allocated to these two grants. The Center was not able to provide documentation to support that
these costs were distributed in reasonable proportion to the benefits received for the two Head
Start grants. Therefore, we set aside the $785,296 for resolution by OHS.

THE CENTER CLAIMED UNALLOWABLE AND
INADEQUATELY SUPPORTED COSTS

For the period July 1, 2010, through March 31, 2011, the Center claimed $696,017 in indirect,
accrued, equipment, contractual, other direct, and vision insurance costs that were unallowable
and $4,957,967 in salary and wage and related fringe benefit costs that were not adequately
supported. We set aside the $4,957,967 for resolution by OHS.

Unallowable Indirect Costs

Federal cost principles (2 CFR part 230, Appendix A, § E.2.c.) state that organizations that have
previously established indirect cost rates must submit a new indirect cost proposal to the
cognizant agency within 6 months after the close of each FY.

The Center claimed $402,837 in unallowable indirect costs. The Center did not submit a new
indirect cost proposal to the cognizant agency, the HHS Division of Cost Allocation (DCA),
within 6 months after the close of the FY ended June 30, 2010. On September 29, 2011, DCA
4
    Shared costs are costs allocated between two or more programs.


                                                          6
informed the Center that its provisional indirect cost rate had been rescinded because the Center
had not submitted an indirect cost proposal for its FY beginning July 1, 2009. In addition, DCA
instructed awarding agencies to take steps to recover amounts paid for indirect costs for the FY
beginning July 1, 2009, and subsequent periods.

Unallowable Accrued Costs

Federal cost principles (2 CFR part 230, Appendix A, §§ A.2.a. and g.) state that a cost is
allowable under an award if it is reasonable for the performance of the award, allocable to it, and
adequately documented.

The Center claimed $207,237 in accrued costs that were not documented and were therefore
unallowable. For example, for one accrued cost, the Center’s general ledger referred to the cost
as “Head Start year end accruals 7/31/2010.” Without documentation, there was no way to
determine the type of costs incurred.

Unallowable Equipment Costs

Federal cost principles (2 CFR part 230, Appendix A, §§ A.2.a. and g.) state that a cost is
allowable under an award if it is reasonable for the performance of the award, allocable to it, and
adequately documented.

The HHS Grants Policy Statement states that the grantee must obtain prior approval for a change
in scope that includes a purchase of a unit of general-purpose or special-purpose equipment
exceeding $25,000 (part II-53, Change in Scope). Further, the HHS Grants Policy Statement
states that failure to obtain required prior approval may result in the disallowance of costs,
termination of the award, or other enforcement action within the awarding agency’s authority
(part II-56, Requesting OPDIV Prior Approval).

The Center claimed $55,570 in unallowable equipment costs. Specifically, the Center claimed
the costs of two vehicles for which it did not have supporting documentation and/or prior
approval from ACF, the awarding agency. The cost of each vehicle exceeded $25,000.

Unallowable Contractual Costs

Federal cost principles (2 CFR part 230, Appendix A, §§ A.2.a. and g.) state that a cost is
allowable under an award if it is reasonable for the performance of the award, allocable to it, and
adequately documented. In addition, Federal cost principles (2 CFR part 230, Appendix B,
paragraph 37) state that the reasonableness and allowability of costs for professional services are
determined by multiple factors, including, among others, (1) the nature and scope of the services
provided in relation to the service required; (2) the necessity of contracting for the service,
considering the nonprofit organization’s capability in the particular area; (3) whether the service
can be performed more economically by employees rather than contractors; and (4) the adequacy
of the contractual agreement (e.g., description of the service, estimate of the time required, rate
of compensation, and termination provisions).




                                                 7
The Center claimed $17,986 in contractual costs for professional services that were not
adequately documented and were therefore unallowable. Specifically, the Center provided
invoices and proof of payment; however, it did not provide contracts for $11,156 in professional
services costs that it claimed during our audit period for hiring temporary employees and for
obtaining legal services and mental health services. In addition, the Center claimed $6,830 in
contractual costs for a community partnership and professional services that were not adequately
supported by source documentation. The Center provided invoices and contracts for these costs;
however, it did not provide proof of payment to support that these costs were incurred.

Unallowable Other Direct Costs

Federal cost principles (2 CFR part 230, Appendix A, §§ A.2.a. and g.) state that a cost is
allowable under an award if it is reasonable for the performance of the award, allocable to it, and
adequately documented.

The Center claimed $7,166 in other direct costs that were not adequately documented and were
therefore unallowable. Specifically, the Center claimed $3,556 in training costs and $1,877 in
repair and maintenance costs for which the Center had no supporting documentation. In
addition, the Center claimed $837 in training costs and $896 in utilities costs that were not
adequately supported by source documentation. The Center provided invoices for these costs;
however, it did not provide proof of payment to support that these costs were incurred.

Unallowable Vision Insurance Costs

Federal regulations state that grantees must maintain financial management systems that provide
for effective control over and accountability for all funds, property, and other assets (45 CFR
§ 74.21(b)(3)).

The Center did not maintain financial management systems that provided for effective control
over and accountability for vision insurance costs. Specifically, the Center claimed $5,221 in
vision insurance costs that it did not incur and were therefore unallowable. In addition, a Center
official stated that the vision insurance was voluntary and fully paid by the Center’s employees.

Inadequately Supported Salaries and Wages

Federal cost principles (2 CFR part 230, Appendix A, § A.2.g.) state that to be allowable under
an award, costs must be adequately documented.

Federal cost principles (2 CFR part 230, Appendix B, § 8.m.(1)) state: “Charges to awards for
salaries and wages, whether treated as direct costs or indirect costs, will be based on documented
payrolls approved by a responsible official(s) of the organization. The distribution of salaries
and wages to awards must be supported by personnel activity reports ….” In addition, § 8.m.(2)
states: “Reports reflecting the distribution of activity of each employee must be maintained for
all staff members (professionals and nonprofessionals) whose compensation is charged, in whole
or in part, directly to awards.”




                                                 8
Federal cost principles (2 CFR part 230, Appendix B, § 8.m.(2)(a)) specify that personnel
activity reports “… must reflect an after-the-fact determination of the actual activity of each
employee. Budget estimates (i.e., estimates determined before the services are performed) do
not qualify as support for charges to awards.”

The Center did not adequately document $3,732,926 in costs for salaries and wages claimed for
the five grants. The Center charged salaries and wages based on documented payrolls approved
by responsible officials of the Center. After reviewing the Center’s payroll records, we
determined that the Center incurred these costs. However, the Center did not maintain personnel
activity reports reflecting the actual distribution of activity of each employee whose
compensation was claimed under the grants. Instead, the Center supported its costs for salaries
and wages with payroll records reflecting budget estimates determined when an employee was
hired or promoted. Budget estimates determined before the services were performed do not
qualify as adequate supporting documentation for salaries and wages claimed under the grants.
In addition, the Center did not always maintain adequate documentation showing the most recent
rate of pay of each employee. As a result, we set aside $4,957,967 for resolution by OHS,
consisting of $3,732,926 in costs for salaries and wages and $1,225,041 in costs for related
fringe benefits.

THE CENTER DID NOT MAINTAIN FINANCIAL MANAGEMENT SYSTEMS AND
PRACTICES THAT COMPLIED WITH FEDERAL REQUIREMENTS

The Center did not maintain financial management systems and practices that complied with
Federal requirements. Specifically, the Center did not maintain a financial management system
that safeguarded assets, did not always maintain Federal funds in insured bank accounts, and did
not maintain property management and procurement standards in accordance with Federal
requirements.

Safeguarding of Assets

Federal regulations state that grantees must maintain financial management systems that provide
for accurate, current, and complete disclosure of the financial results of each HHS-sponsored
project (45 CFR § 74.21(b)(1)) and effective control over and accountability for all funds,
property, and other assets (45 CFR § 74.21(b)(3)). Grantees must adequately safeguard all such
assets and ensure that they are used solely for authorized purposes.

The Center did not maintain a financial management system that safeguarded assets or provided
for accurate, current, and complete disclosure of financial results and effective control over and
accountability for all funds, property, and other assets. Specifically, the Center did not
(1) perform bank reconciliations, (2) maintain prenumbered checks, and (3) adequately segregate
duties for timekeeping and payroll. A Center official stated that any individual in the payroll
department may process timesheets, input exempt staff hours into the payroll system,
electronically submit information to the contractor for the processing of payroll, and separate
payroll checks for distribution.




                                                9
Insured Bank Accounts

Federal regulations state that advances of Federal funds must be deposited and maintained in
insured accounts whenever possible (45 CFR § 74.22(i)(2)). The Federal Deposit Insurance
Corporation (FDIC) provides maximum insurance coverage of $250,000 for deposits with an
FDIC-insured financial institution.

The Center did not always deposit or maintain Federal funds in insured accounts. For example,
the Center maintained a balance of $806,635 for 14 days from November 30 through
December 14, 2010, at a single financial institution. Because this deposit exceeded $250,000, it
was not fully insured by FDIC and was therefore at risk.

Property Management Standards

Federal regulations state that the grantee’s property management standards for equipment
acquired with Federal funds and federally owned equipment must include accurate equipment
records that contain a description of the equipment, an identification number, the source of the
equipment (including award number), the acquisition date and cost, the condition of the
equipment, and ultimate disposition data (45 CFR § 74.34(f)(1)). In addition, the grantee must
take a physical inventory of equipment and reconcile the results with equipment records at least
once every 2 years (45 CFR § 74.34(f)(3)) and must maintain a control system to ensure
adequate safeguards to prevent loss, damage, or theft of equipment (45 CFR § 74.34(f)(4)).

The Center did not maintain property management standards in accordance with Federal
requirements. Specifically, the Center did not maintain accurate equipment records or perform a
physical inventory of all equipment. For example, the Center did not include in its equipment
records playground equipment with a useful life of more than 1 year and a purchase price of
$500 or more, as required by its property management policies. Also, the Center’s equipment
records for computers used for the Head Start program were missing required information, such
as a description of the equipment, the source of the equipment, acquisition cost, and condition.
Lastly, the Center did not conduct physical inventories of computers and other equipment costing
$500 or more that were purchased with Head Start funds. Lack of property management and a
control system may result in loss, damage, or theft of equipment.

Procurement Standards

The Center did not maintain procurement standards in accordance with Federal requirements.
Specifically, the Center’s written procurement procedures did not meet the minimum Federal
requirements, and the Center’s contracts did not always contain required provisions.

Written Procurement Procedures

Federal regulations state that grantees must establish written procurement procedures that
provide for, at a minimum, avoiding the purchase of unnecessary items, analyzing lease and
purchase alternatives, and soliciting goods and services (45 CFR § 74.44(a)).




                                               10
The Center’s written procurement procedures did not include all of the requirements for the
solicitation of goods and services, such as a description of technical requirements in terms of
functions to be performed or performance required.

Contract Provisions

For contracts in excess of $100,000, Federal regulations state that grantees must include
provisions that allow for remedies in instances in which a contractor violates or breaches the
contract terms (45 CFR § 74.48(a)). All such contracts also must contain provisions for
termination by the grantee, including the manner by which termination will be effected and the
basis for settlement. In addition, those contracts must describe conditions under which the
contract may be terminated for default as well as conditions where the contract may be
terminated because of circumstances beyond the control of the contractor (45 CFR § 74.48(b)).
Lastly, all such contracts must include a provision to the effect that the HHS awarding agency,
the U.S. Comptroller General, or any of their duly authorized representatives must have access to
any books, documents, papers, and records of the contractor that are directly pertinent to a
specific program for the purpose of making audits, examinations, excerpts, and transcriptions
(45 CFR § 74.48(d)).

The Center did not include the required provisions in its contracts in excess of $100,000. For
example, one contract for $370,520 did not include provisions that allowed for (1) administrative,
contractual, or legal remedies in instances in which a contractor violated or breached the terms and
provisions or (2) termination by the recipient, including the manner by which termination would be
effected and the basis for settlement. Lack of required contract provisions may result in the
Center’s inability to adequately safeguard its funds if a contract is terminated.

RECOMMENDATIONS

We recommend that OHS:

   •   require the Center to refund $967,387 to the Federal Government and

   •   work with the Center to determine the allowability of $5,743,263 that we set aside and
       ensure that the Center refunds any amount that is determined to be unallowable.

We are not making recommendations to address the Center’s noncompliance with Federal
requirements for financial management systems and practices because the Center relinquished its
Head Start funds effective October 7, 2011.

CENTER FOR COMMUNITY AND FAMILY SERVICES, INC., COMMENTS

In written comments on our draft report, the Center disagreed with our findings that it did not
maintain adequate financial records to support grant funds received from ACF and that it claimed
costs that were unallowable:




                                                11
   •   The Center stated that it had submitted to ACF annual budgets providing a detailed
       explanation of the Center’s intended use of Recovery Act funds and that ACF approved
       its budget before it used the Recovery Act funds.

   •   The Center stated that it had submitted to ACF an annual independent audit report, which
       did not refer to misuse, inappropriate use, or unallowable use of Recovery Act funds.
       The Center also stated that ACF accepted the audit report without challenge or substantial
       findings.

   •   The Center stated that our report noted several programmatic and financial challenges
       that were clearly under the direction of the previous Head Start administrator, who was
       terminated because of poor performance and negligent activity, and that the Center was
       now aware of additional discrepancies.

The Center did not comment on our finding that it did not maintain financial management
systems and practices that complied with Federal requirements. We have included the Center’s
comments in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Although the Center may have submitted annual budgets and an audit report to ACF, the Center
is still required to comply with Federal regulations related to the use of Head Start and Recovery
Act funds. We continue to maintain that the Center did not have adequate financial records to
support grant funds received from ACF and claimed costs that were unallowable and
inadequately supported.

OFFICE OF HEAD START COMMENTS

In written comments on our draft report, OHS agreed with our findings on unallowable costs and
the related recommendation to refund $967,387. Regarding the second recommendation, OHS
stated that it would evaluate the allowability of the $5,743,263 that we set aside and the potential
disallowance action. OHS’s comments are included in their entirety as Appendix D.




                                                 12
APPENDIXES
  APPENDIX A: FUNDS RECEIVED AND EXPENDITURES REPORTED FOR THE
   FIVE GRANTS FOR THE PERIOD JULY 1, 2009, THROUGH MARCH 31, 2011



                                                                       Expenditures
                                                 Funds Received          Reported
        Grant Type            Grant Period      07/01/09–03/31/11    07/01/09–03/31/11
Head Start Operations       08/01/09–07/31/10          $11,289,343          $11,256,277
Head Start Operations       08/01/10–07/31/11            5,734,727            5,604,421
Head Start Recovery Act     11/01/09–09/29/10              938,400              846,000
Expansion
Head Start Recovery Act     09/30/10–09/29/11             156,101              608,463
Expansion
Head Start Recovery Act     07/01/09–09/30/10             693,323              620,962
Cost-of-Living Adjustment
and Quality Improvement
     Total                                            $18,811,894          $18,936,123
               APPENDIX B: DISALLOWED AND SET-ASIDE COSTS


          July 1, 2009, Through March 31, 2011               Disallowed    Set Aside

Cash Advances in Excess of Reported Costs Not Supported by
Accounting Records                                              $197,827
Reported Costs Not Supported by Accounting Records                73,543
Shared Costs Not Supported by Adequate Records                               $785,296
 Subtotal                                                       $271,370     $785,296

          July 1, 2010, Through March 31, 2011               Disallowed    Set Aside

Unallowable Costs
 Indirect Costs                                                 $402,837
 Accrued Costs                                                   207,237
 Equipment Costs                                                  55,570
 Contractual Costs                                                17,986
 Other Direct Costs
   Training ($4,393)
   Repair and Maintenance ($1,877)
   Utilities ($896)

  Total Other Direct Costs                                         7,166
  Vision Insurance Costs                                           5,221
Inadequately Supported Salaries and Wages                                  $3,732,926
Fringe Benefits                                                             1,225,041
  Subtotal                                                      $696,017   $4,957,967

   TOTAL                                                        $967,387   $5,743,263
                                                                                                      Page 1 of2

APPENDIX C: CENTER FOR COMMUNITY AND FAMILY SERVICES, INC., 

                        COMMENTS 





                     Cenler fo r Comm uuily and Family Services, Inc. 

                                     12627 S. Willowbrook Avenue 

                                         Compton, CA 90222 

                                             (31 0) !i37-7!i70




     January 29, 2013

     Department of Health and Iluman Services
     Office of Inspector General
     Office of Audit Serv ices, Region IX
     Ms. Lori A. Ahlstrand
     Regional Inspector General for Audit Services
     90 - 7d' Street, Suite 3-650
     San Francisco, CA 94103

     Re: R epor t Number: A-09-11-01006
     Center fot· Com munity and Family Senices, [nc
     Dr-d ft Report- Agent-y Response


     Dear Ms. Ahlstrand:

     The Center for Community and Family Services, Inc would like to respond to the following
     challenges noted by yoLu· department regarding the use of Head Start and Recovery Act funds in
     accordance with Federal Requirement<;. Your department noted in the Summary findings;

            The Center for Community and Family Services, Inc did not maintain adequate records to
            support grant funds received from ACF and claimed costs that were unallowable:

     The Center for Community and Family Services, Inc (CCFS) respectfully disagrees with your
     preliminary findings. CCFS disagrees with your fmdings on expending Recovery Act FLmds
     based on the folknving infom1ation, wh ich ·was submitted lo ACF prior to expending any
     Recovery Act. Funds. The Center fnr Commun ity and Family Services, lnc submitted to ACF
     annual budgets, which provided a detailed explanation of our intended use of the Recovery Act
     funds. ACF approved our budget prior to the use ofRecovery Act funds. CCFS then
     implemented a program and financial plan of action in accordance to the budget approved by
     ACF for intended use of the Recovery Act F unds. In addition, an rumual independent audit was
     submi tted to ACF. T he armual audit, completed by outside professional sources, did not state
     misuse, inappropriate usc, or unallowable usc of Recovery Act .Funds. The CCFS annual audit
                                                                                                    Page 2 of2



CCFS Response to O IG Report
January 29, 2013
Page 2 of2



was submitted to ACF for review. CCFS received no documentation fi·om ACF stating that there
were any concems from our annual audit report. The audit report was accepted by ACF without
challenge or substantial findings . TI1e audit and our annual budget provide specific use of
Recovery Act fi.mds, and they were accepted by ACF without challenge.

In addition, the Head Start program was reviewed on a periodic basis by the staffofthe Head
Start regional office as well as independent contractors approved by the Head Start regional
office. At no time did any ofthe findings or deficiencies noted in your report was brought to the
atlention o[CCAFS administrative staff. On the contrary, CCA FS program was g iven high
marksfor its operation efficiency.

Your report concentrates on the negative. It does not mention the 4forts CCAFS made in the
development and maintenance ofthe program. Specifically, it does not discuss the cost incurred
and paid by CCAFS is providing two Head Start sites without costs to the Head Start program.
Your report also fails to mention thatACF realized over a $1.000,000 gain in the form of
proceedsfrom the sale oftwo CCFS properties. This gain was over $1 ,000,000 above and
beyond the amount that was invested in the property through grants to the Head Start Program.

However, prior to the cotrunencement of your auditing of our Head Start program, the Head Start
administrator was tem1inated due t.o poor perfonnance m1d negligent activity. TI1e agency
conducted its own evaluation of the previous Head Sta11 administrator and determined that
several major program violations bad occun·ed, thus leading to the tennination ofthe previous
Head Start administration. Your report noted several programmatic and financial challenges that
were clem·ly under the direction ofthe previous Head St<U1 administration and CCFS is now
aware of additional discrepancies that were clearly under the auspices ofthe previous Head Sta11
administrator. Tims, based on the acceptance of our ammal Head Start budgets by ACF, the
acceptance of annual independent audits accepted by ACF and the negligence of our previous
Head Start administrator, the Center for Community and Family Services, Inc submits to you that
misuse of Recovery Act funds did not occur nor were there any challenges submitted to the
Board of Directors or the Executive D irector. CCFS was not pcm1itted to draw down any Head
Start funds without prior approval from Head Start regional personnel. CCFS was required to
submit detailed infom1ation to ACF, via electronic mail which demonstrated our use of Head
Start Funds. Upon receiving electronic authorization from Head Start, we were permitted to draw
down funds based upon their review ofour financial reports. Again, we cannot accept the results
of your findings, due to the fact we acted in accordance to our Head Start representatives,
liaisons, and the previous Head Start administrator. CCFS is more than willing to meet face to
face with documentation, el.ectronic documentation, agency reports, annua.l audits, and
interviews to sustain our position.

Center for Community and Family Services, Jnc.
        APPENDIX D: OFFICE OF HEAD START COMMENTS 





{..,..
\.,;s~
      .~        	
             DEPARTMENT OF HEALTH & HUMAN SERVICES
                                                                          cHIIiJ'REN &<FAMILIES
                                                                             Region IX
             Refer to: 09CH0044 	                                            90 7th Street, Suite 9-100
                                                                             San Francisco, CA 941 03


DATE: 	        April25, 2013

TO: 	          Lori A. Ahlstrand
               Regional Inspector General for Audit Services

FROM: 	        Jan Len /Jan Len/
               Regional Program Manager, Region IX


SUBJECT: Center for Community and Family Services, Inc., Did Not Expend Head Start and
Recovery Act Funds in Accordance With Federal Requirements (A-09-11-0 I 006)

We have carefully reviewed and agree with the findings provided by the Office oflnspector
General' s (OIG) report on Center for Community and Famil y Services, Inc. (CCFS) expend itures
for Head Start and Recovery Act Funds received by CCFS from the period July I, 2009, throug h
March 3 1, 20 II. We agree with OIG ' s finding and recommendation for CCFS to return the
unallowable costs of $967,387 and we w ill move to disallow the stated costs. OIG also set aside
costs in the amount of$5,743 ,263 to be resolved by the Adm inistration of Childre n and Fami lies
(ACF). We wi ll evaluate these "questioned" costs found by OTG for a llowability and potential
disallowance action.

We thank you for completing this review on CCFS. ACF requested OIG to perform a review of
Head Start (HS) expe nditures because of the serio us risk ofthe allowabili ty ofclaimed costs.
ACF also requested a review of the discrepancy among the amount ofHS funds received by
CCFS, the tota l expenditures reported on th e Financ ial Status Reports, and the Federal Financ ial
Reports submitted to ACF during the abo ve period.

The Department of Health and Human Services, Division ofCost Allocation (DCA) completed
follow-up wi th CCFS to obta in an indirect cost proposal for the fiscal year beginn ing Ju ly I ,
2009. In the absence ofa response, DCA issued a notification in September 20 I I to CCFS and
Awarding Agenc ies that indirect costs from Ju ly I, 2009 and forward could not be claimed,
specifically " indi rect costs should not be provided to this organization." Part ofthe unallowable
costs identified by O IG was their indirect costs charged to the grants. CCFS did not submit an
indirect cost proposal despite continued follow-up by ACF.


cc:

Ann Linehan, Deputy Director, Office of Head Start
Martin Tom, Grants Management Officer, Region IX, Office of Grants Management
Yolanda Wise, Head Start Program Specia list, Office of Head Start
